Nos. 19-251 & 19-255

In the Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,
v.
XAVIER BECERRA, Respondent.

THOMAS MORE LAW CENTER, Petitioner,
v.
XAVIER BECERRA, Respondent.

CERTIFICATE OF ELECTRONIC SERVICE
I, Aimee Feinberg, Deputy Solicitor General, a member of the Bar of this
Court, hereby certify that on March 9, 2021, consistent with this Court’s order of
April 15, 2020 and the parties’ consent, an electronic copy of the Unopposed
Application to Exceed Word Limits in the above-entitled case was served by electronic
mail upon:
Derek L. Shaffer
Quinn Emanuel Urquhart &
Sullivan, LLP
1300 I Street, N.W.
Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com
Counsel for Petitioner Americans
for Prosperity Foundation

John J. Bursch
Alliance Defending Freedom
440 First Street, N.W.
Suite 600
Washington, DC 20001
jbursch@adflegal.org
Counsel for Petitioner Thomas More
Law Center

I further certify that all parties required to be served have been served.
/s/ Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel of Record for Respondent

